<html>
<title> - FULL COMMITTEE MARKUP OF HR. 3567, THE SMALL BUSINESS INVESTMENT EXPANSION ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   FULL COMMITTEE MARKUP OF HR. 3567, 
                      THE SMALL BUSINESS INVESTMENT 
                         EXPANSION ACT OF 2007 

=======================================================================

                      COMMITTEE ON SMALL BUSINESS
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 20, 2007

                               __________

                          Serial Number 110-46

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                     U.S. GOVERNMENT PRINTING OFFICE

38-204 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



























                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman


HEATH SHULER, North Carolina         STEVE CHABOT, Ohio, Ranking Member
CHARLIE GONZALEZ, Texas              ROSCOE BARTLETT, Maryland
RICK LARSEN, Washington              SAM GRAVES, Missouri
RAUL GRIJALVA, Arizona               TODD AKIN, Missouri
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
MELISSA BEAN, Illinois               MARILYN MUSGRAVE, Colorado
HENRY CUELLAR, Texas                 STEVE KING, Iowa
DAN LIPINSKI, Illinois               JEFF FORTENBERRY, Nebraska
GWEN MOORE, Wisconsin                LYNN WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          LOUIE GOHMERT, Texas
BRUCE BRALEY, Iowa                   DEAN HELLER, Nevada
YVETTE CLARKE, New York              DAVID DAVIS, Tennessee
BRAD ELLSWORTH, Indiana              MARY FALLIN, Oklahoma
HANK JOHNSON, Georgia                VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             JIM JORDAN, Ohio

                  Michael Day, Majority Staff Director

                  Adam Minehardt, Deputy Staff Director

                       Tim Slattery, Chief Counsel

               Kevin Fitzpatrick, Minority Staff Director

                                 ______

                         STANDING SUBCOMMITTEES

              Subcommittee on Finance and Tax

                   MELISSA BEAN, Illinois, Chairwoman


RAUL GRIJALVA, Arizona               DEAN HELLER, Nevada, Ranking
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              STEVE KING, Iowa
HANK JOHNSON, Georgia                VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             JIM JORDAN, Ohio

                                 ______

              Subcommittee on Contracting and Technology

                      BRUCE BRALEY, IOWA, Chairman


HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee, Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              SAM GRAVES, Missouri
JOE SESTAK, Pennsylvania             TODD AKIN, Missouri
                                     MARY FALLIN, Oklahoma

        .........................................................

                                  (ii)

  


              Subcommittee on Regulations, Health Care and Trade

                   CHARLES GONZALEZ, Texas, Chairman


RICK LARSEN, Washington              LYNN WESTMORELAND, Georgia, 
DAN LIPINSKI, Illinois               Ranking
MELISSA BEAN, Illinois               BILL SHUSTER, Pennsylvania
GWEN MOORE, Wisconsin                STEVE KING, Iowa
JASON ALTMIRE, Pennsylvania          MARILYN MUSGRAVE, Colorado
JOE SESTAK, Pennsylvania             MARY FALLIN, Oklahoma
                                     VERN BUCHANAN, Florida
                                     JIM JORDAN, Ohio

                                 ______

              Subcommittee on Urban and Rural Entrepreneurship

                 HEATH SHULER, North Carolina, Chairman


RICK LARSEN, Washington              JEFF FORTENBERRY, Nebraska, 
MICHAEL MICHAUD, Maine               Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              MARILYN MUSGRAVE, Colorado
BRAD ELLSWORTH, Indiana              DEAN HELLER, Nevada
HANK JOHNSON, Georgia                DAVID DAVIS, Tennessee

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, PENNSYLVANIA, Chairman


CHARLIE GONZALEZ, Texas              LOUIE GOHMERT, Texas, Ranking
RAUL GRIJALVA, Arizona               LYNN WESTMORELAND, Georgia

                                 (iii)

  





















                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Velazquez, Hon. Nydia M..........................................     1
Chabot, Hon. Steve...............................................     2
Altmire, Hon. Jason..............................................     4
Graves, Hon. Sam.................................................     5

                                APPENDIX


Prepared Statements:
Velazquez, Hon. Nydia M..........................................    10
Chabot, Hon. Steve...............................................    12
Altmire, Hon. Jason..............................................    13

                                  (v)

  


                   FULL COMITTEE MARKUP OF H.R. 3567,
                     THE SMALL BUSINESS INVESTMENT
                         EXPANSION ACT OF 2007

                              ----------                              


                      Thursday, September 20, 2007

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., inRoom 
2360, Rayburn House Office Building, Hon. Nydia M. Velazquez 
[Chairwoman of the Committee] Presiding.
    Present: Representatives Velazquez, Shuler, Gonzalez, 
Grijalva, Michaud, Cuellar, Lipinski, Moore, Altmire, Braley, 
Clarke, Ellsworth, Sestak, Chabot, Bartlett, Graves, Akin, 
Musgrave, Westmoreland, Heller, Davis, Fallin, Buchanan, and 
Jordan.

           OPENING STATEMENT OF CHAIRWOMAN VELAZQUEZ

    Chairwoman Velazquez. I am pleased to call this morning's 
markup to order. In today's markup the Committee will address 
issues to strengthen and update the SBA's venture capital 
programs. Perhaps none of the SBA directives have proven more 
important than the investment mission, because without this 
vital resource, no business can grow. Would it not be for SBA's 
access to the capital programs, many of our Nation's leading 
companies would have never become as successful as they are 
today. Apple, Costco, Federal Express and Intel are just a few 
of the companies that have benefited from the SBA's investment 
programs.
    For the SBA's investment mission to have continued success, 
however, it will be vital that the agency's programs be updated 
and simplified to meet the growing economic challenges they 
were originally intended to address. Over the past 5 years the 
amount of venture capital going to startup small businesses 
under the SBA's flagship equity investment program, the SBAC 
program, has steadily declined. This has not only limited the 
ability of small businesses to expand and grow but also has 
hindered their ability to generate innovative new ideas and new 
products. Almost equally troubling has been the decline in the 
SBA's ability to provide equity capital for specially and 
economically disadvantaged small businesses.
    Without funding, however, the New Markets Venture Capital 
program has lacked the resources to license new venture capital 
companies or expand into new low-income communities. In its 
brief history, however, the New Markets program, has proven its 
potential to develop vibrant small businesses that can 
dramatically improve the economic conditions in low-income 
communities. Most notably, the SBA has continued to apply 
outdated and unreasonable affiliation policies against venture 
capital companies and has effectively stifled the free flow of 
venture capital to small businesses. These policies are not 
only inconsistent with the affiliation rules that the agency 
follows in other contexts, but are also unreasonable. These 
policies impede the flow of venture capital to small businesses 
for minimal benefit.
    The Small Business Investment Expansion Act that we will 
mark up today is an important step toward reversing these 
problems.
    This legislation will renew our commitment toward small 
business investment by providing much-needed simplifications to 
the SBAC and New Markets programs. A new Angel investment 
program will be established to fill the gap in seed capital 
that was created by the elimination of the participating 
securities program. The bill also features a renewed focus on 
providing equity capital to businesses in low-income areas and 
minority-owned businesses, two key sectors of the small 
business community that have continued to face particularly 
high barriers to securing venture capital.
    Small businesses deserve our efforts to listen to their 
problems and remove barriers. Such cooperation is good for all 
of us because these businesses are the most innovative that 
create the new jobs and produce half of our income. They 
deserve our best efforts.
    As this country continues to rely on entrepreneurs to spur 
economic development and create jobs, the need for venture 
capital will only continue to grow. Once again, this Committee 
is demonstrating the strengths that come from working in a 
bipartisan manner. In particular, I would like to thank Ranking 
Member Chabot and his staff for their efforts to work with us 
on this bill. I would also like to thank Mr. Altmire who, with 
Mr. Graves from Missouri, introduced the Small Business 
Investment Expansion Act of 2007. Their contributions were and 
continue to be essential to this legislation's success.
    And now I would like to yield to Ranking Member Mr. Chabot 
for his opening statements.

                OPENING STATEMENT OF MR. CHABOT

    Mr. Chabot. Thank you, Madam Chair. I would first of all 
like to thank members on both sides of the aisle for their 
attendance here this morning. I understand this probably won't 
take too long. But the bill being considered today has many 
improvements to the program authorized by the Small Business 
Investment Act of 1958. In addition, the bill under the 
leadership of Chairwoman Velazquez also incorporates an effort 
to focus equity investment on small startup businesses, those 
that may eventually turn into the next Nike or Federal Express 
or Dell computer.
    The bill makes important technical changes to the small 
business investment company program. These changes, as we heard 
in testimony, will make the program more transparent to 
potential investors, and therefore increase participation in a 
valuable program.
    I would also like to thank the Chair for incorporating a 
number of very important changes to the New Markets Venture 
Capital program. These companies will help revitalize poor 
urban and rural areas, including areas, for example, in the 
district that I happen to represent in Cincinnati, which has a 
number of areas that do need improvement, that need new 
enterprise.
    I look forward to working with all members of the Committee 
on both sides to ensure the success of this program.
    The bill before us takes an interesting approach, similar 
to the one in the SBIC program, to provide incentives to 
provide equity to the newest of small businesses. I think the 
approach in this bill adopts the correct balance between 
providing incentives while reducing risk to the government and 
risk to the taxpayer. I would simply note that the Committee 
should be ready to make mid-course corrections if economic 
conditions necessitate it.
    The SBA's surety bond program provides an important tool 
that enables small government contractors to compete against 
much larger businesses that have no problem finding surety 
bonds. The amendments in this bill, albeit modest, will improve 
participation in the program by bond underwriters. This 
ultimately benefits the American public, who will benefit from 
greater competition among Federal Government contractors.
    The same cannot be said, unfortunately, for the final 
substantive provision in the bill Title V. It is important that 
my reservations be explained in some detail. Title V provides 
that a venture capital company owns one or more of the 
companies that it has provided equity to will not be deemed to 
be affiliated with this company or any other company it owns. 
In other words, as long as every company that it owns is small, 
the venture capital company remains small. Thus, a venture 
capital company can own dozens, if not more, companies and then 
bid on a government contract, using any or all of its 
subsidiaries to perform the work and still be considered a 
small business.
    Thus, a small venture capital company could be a very large 
defense contractor, for example, competing against much smaller 
businesses. I do not see how this benefits small businesses or 
increases competition among Federal Government contractors. I 
do believe that it will provide an opportunity for venture 
capital companies to become holding companies for small 
government contractors. I believe that Title V's effort to 
resolve a narrow interpretation of SBA's size standards is akin 
to destroying an ant hill with a thermonuclear device. For this 
reason, I have significant reservations about that portion of 
the bill. Despite this, I would vote to report the bill out of 
the Committee.
    Chairwoman Velazquez. Will the gentleman yield?
    Mr. Chabot. I will yield.
    Chairwoman Velazquez. You have my commitment to continue to 
work with you to find a solution to the problem.
    Mr. Chabot. I greatly appreciate that. And reclaiming my 
time, that is essentially what I was going to indicate, that I 
do intend to vote for the bill because the Chairwoman and her 
staff have promised to ameliorate the concerns that many of us 
have about those portions of the bill that I just mentioned in 
its current form as the bill moves through the legislative 
process. With that promise and the significant changes that the 
bill makes in other areas, I think it is important to move the 
legislative process forward in a bipartisan effort to assist 
America's small businesses.
    And before yielding back, I think it is important to note 
that although there is substantial disagreement with the 
approach taken in the bill on some of those issues that I just 
mentioned, the Chairwoman should be commended for her efforts 
to maintain comity and work in a bipartisan effort to address 
the serious concerns that have been expressed about the bill. 
And I look forward to working with the Chair as the legislative 
process moves forward.
    Again, I would urge my colleagues to support this, although 
everyone obviously has to make their own decision on both sides 
on that.
    And I yield back the balance of my time.

    Chairwoman Velazquez. Thank you. I would now like to 
recognize one of the lead sponsors of the legislation, the 
Chair of the Investigations and Oversight Subcommittee, Mr. 
Altmire, for his statement and explanation of the legislation.

                OPENING STATEMENT OF MR. ALTMIRE

    Mr. Altmire. Thank you, Chairwoman Velazquez and Ranking 
Member Chabot, for your leadership and the opportunity to work 
with you and the Committee staff to draft this critically 
important legislation for our Nation's small businesses.
    I would also like to recognize the enormous contributions 
of Representative Graves and thank him for his support and the 
key part he played in moving this bill forward.
    The Small Business Administration's investment programs 
have fallen short in addressing the capital needs of small 
businesses, resulting in nearly $60 billion in unmet capital 
needs for small businesses each year.
    This week I introduced the Small Business Investment 
Expansion Act to address many of the challenges our Nation's 
small businesses face when trying to obtain investment capital. 
This bill will connect small businesses with the capital 
investment necessary to start and grow their operations. 
Through this legislation, we can provide the financial 
assistance small firms need by making the SBA a partner in 
their business development and by improving access to venture 
capital and Angel investments.
    The Small Business Investment Expansion Act addresses the 
current shortfall in capital investment by revamping the SBA's 
Small Business Investment Company, SBIC, and the New Markets 
Venture Capital programs, NMVC. Both are public-private 
partnerships designed to aid small firms, in particular those 
owned by veterans, women and minorities.
    In acquiring venture capital, the bill also creates a new 
Office of Angel Investment to build the first-ever nationwide 
network of Angel groups and enhance awareness about the 
available investment opportunities. Angel investors are high 
net worth individuals who invest in and support startup 
companies. It is estimated that Angel investors account for 
more than 51,000 entrepreneurial ventures each year and are 
rapidly becoming a common way for startups to obtain capital.
    Additionally, the act will ensure firms that receive 
venture capital are able to maintain their small business 
classification, removing current disincentives to seeking this 
kind of financing. Small businesses are the backbone of our 
economy, and the Federal Government must do more to connect 
them with the capital investment required for them to succeed.
    My bill is necessary to improve SBA's current investment 
programs, facilitate links to Angel networks and create an 
environment in which small businesses go from startup to 
success. I urge all Committee members to support this bill.
    And again, I want to thank Chairwoman Velazquez, the 
Ranking Member and Representative Graves for your leadership.

    Chairwoman Velazquez. I would now like to recognize the 
lead cosponsor of this legislation, Mr. Graves, for his 
statement on the legislation.

                OPENING STATEMENT OF MR. GRAVES

    Mr. Graves. Thank you, Madam Chairwoman. Chairwoman 
Velazquez, Ranking Member Chabot, I appreciate all that you 
have done and allowing me an opportunity to speak.
    Let me start by saying this truly has been a bipartisan 
effort, and I appreciate all the Committee has done on my 
behalf on this bill. It has been a work in progress, and I am 
glad that everyone was able to get their concerns addressed. I 
hope we can continue to work on it, and I obviously think we 
will, in a bipartisan fashion, as this bill moves forward on 
the House floor.
    Investments in our small businesses are important to their 
growth and sustainability. The bill reauthorizes and 
establishes several programs, and directly investing in those 
businesses creates so many jobs in this country. Through this 
bill we should see increased investment in veteran, minority 
and women-owned small businesses plus investments in low-income 
communities and for the small manufacturing companies.
    Title V of this bill, which deals with SBA affiliation 
rules, has been an issue that has been of concern to me for a 
long, long time. Private investments in small businesses are a 
good thing and should be encouraged and not discouraged. The 
language will exclude employees of these private investors when 
determining the size of the small businesses, thus allowing 
them continued access to important programs under the SBA. The 
SBA has a number of programs that have proven vital to small 
business success, and I want to ensure our small businesses 
have continued access to them.
    Again, thank you for bringing this important issue before 
us. It is very important to me and my constituents, and I look 
forward to its passage. And I particularly thank Representative 
Altmire for working with me on this.

    Chairwoman Velazquez. Thank you. Are there any other 
members that wish to be recognized on the legislation? The 
Committee now moves to consideration of the bill H.R. 35--
    Ms. Moore. Madam Chair, I do have an amendment.
    Chairwoman Velazquez. It is not--no. We need to report the 
title of the bill, and we haven't--
    Ms. Moore. I just want to make sure that you remember. 
Thank you.
    Chairwoman Velazquez. The Committee now moves to 
consideration of the bill H.R. 3567. The Clerk will report the 
title of the bill.
    The Clerk. H.R. 3567, a bill to amend the Small Business 
Investment Act of 1958 to expand opportunities for investments 
in small businesses and for other purposes. Be it enacted by 
the Senate and House of Representatives of the United States of 
America in Congress assembled, section 1. Short title; Table of 
Contents.
    Chairwoman Velazquez. I ask unanimous consent for the bill 
to be considered as read. Without objection.

    Chairwoman Velazquez. Does any member seek recognition for 
the purpose of offering an amendment? The gentlelady from 
Wisconsin is recognized.
    Ms. Moore. Thank you so much, Madam Chair.
    Chairwoman Velazquez. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 3567, offered by Ms. Moore of 
Wisconsin.
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read.
    The gentlewoman is recognized.
    Ms. Moore. Thank you so much, Madam Chair and Ranking 
Member. And we do want to thank the prime sponsors, Mr. Altmire 
and Mr. Graves, for their diligence in putting this very 
important legislation together. I think everybody here will 
agree that this is the mother's milk of development in our 
country. We have so little venture capital, and I am so 
pleased.
    As the Chair knows from her previous experience with me 
that I am very passionate about venture capital, very 
passionate about her Title III Angel investment that the 
authors have incorporated in this bill; and indeed, when I was 
a freshman, I was the lead author of the reauthorization of the 
New Markets Venture Capital program.
    Now, the difference in the original New Markets Venture 
Capital program and the SEED Act, which is securing equity for 
the economic development of low-income areas, the SEED Act, 
which I introduced, was reflected in the bill that we saw the 
other day. And it was a compromise that I made with the 
industry to try to bring it in sync with the New Markets Tax 
Credits program. Originally the New Markets Venture Capital 
program said that 50 percent of the households in a Census 
tract had to have a 60 percent less-than-median income in order 
for that Census tract to qualify for the New Markets Venture 
Capital program. And in the language of the bill that we had 
originally, the compromise was made because the venture capital 
community said that we need to bring it in line with the New 
Markets Tax Credits program.
    What my amendment does is to replace the language because I 
didn't want to go that far. The industry then came back and 
wanted to not only change the definition of the low-income 
geographic areas in terms of the median income but to change 
what counts as an investment in the community.
    For example, the bill as it is currently written, says that 
at least 50 percent of the business' income is derived from 
low-income individuals. So in other words, you could be Wal-
Mart, and if 50 percent of the people who come and shop at your 
place are low-income, then that would qualify for the New 
Markets Venture Capital program. Or at least 40 percent of the 
business' employees are low-income.
    So if you have got a business that--you want to start up a 
small business, and 10 of the employees, you could have 10 of 
them making $250,000, and you have got the truck driver, the 
elevator operator, the receptionist and the janitor, that would 
qualify. At least 50 percent of the businesses owned by low-
income individuals, well, that would be marvelous.
    I just think the reason that I didn't include those 
provisions in the SEED Act, which my SEED Act was exactly what 
Mr. Altmire and Mr. Graves put in their bill prior to some 
changes that were made before we got here today, is because of 
the huge, huge opportunity that this would allow for very 
wealthy people to take advantage of a program that was 
designed--and I know that you, Madam Chair, I have worked with 
you long enough to know what your values are and what you would 
like to do.
    So I would love to work with you, Madam Chair, to try to 
get a sense, some report language that really, really puts this 
Committee on record as wanting to make sure that these 
loopholes are not interpreted as the examples that I have given 
that seem preposterous and ridiculous. But we have been on this 
planet long enough to know that people, you know, rejoice in 
these kinds of loopholes and take advantage of them.
    Chairwoman Velazquez. Are you prepared to withdraw the 
amendment with the commitment that I will work with you and the 
Committee on Ways and Means so that the definition of low-
income area could be resolved?
    Ms. Moore. I am willing to work with you. But I also want, 
Madam Chair, a commitment that you will provide some report 
language, and I surely would welcome adding language, talking 
about the need for Ways and Means to work with us, but I want 
some report language that reflects this Committee's desire to 
have this program benefit low-income areas.
    Chairwoman Velazquez. As I explained to the gentlelady on 
my way here, the issue here is that in order to achieve what 
you intend to do with your amendment, we will have to get the 
Ways and Means Committee to change the definition of low-income 
area. So that is beyond the jurisdiction of this Committee.
    Ms. Moore. Reclaiming my time, Madam Chair. This Committee 
has jurisdiction over the New Markets Venture Capital program. 
We are not discussing the New Markets Tax--both these programs 
were authorized in the Clinton administration, both of them 
operated in the Clinton administration. It is not the case that 
these two programs couldn't operate with different definitions. 
They, in fact, have done it. And to the extent that there has 
been any coming together or bringing together of these 
definitions, I am the one who has done it.
    When I introduced my SEED Act, and that language was 
lifted, my bill was lifted totally and placed in this bill. So 
you know, I am taking responsibility and great pride in the 
fact that I have worked with the industry to try to bring these 
two together. I just wasn't willing to open the door completely 
to that.
    I am certainly willing to work with the Ways and Means 
Committee, but we are not considering the New Markets Tax 
Credits program today. We are talking about the New Markets 
Venture Capital program, and all I am asking you for is not to 
change tax law today, I am just asking you to place in some 
report language that our intent is to provide this venture 
capital to benefit low-income communities.
    Madam Chair, you know, you are from New York, and maybe 
this is not a problem that affects your area. But we had 
testimony here that indicated that venture capital was very 
much aligned with the East Coast, with the Silicon Valley, and 
that places in the Midwest, like I live, there is a dearth of 
venture capital.
    And this program, you know, we don't have any problem 
finding venture capital for wealthy Census tracts. This is a 
government program, and all I want is to place that sense of 
Congress, that intent in the record. And I am puzzled and 
bewildered why--apparently your staff is whispering in your 
ear. I am just puzzled and bewildered as to why this is such a 
great commitment to be made, why this is so difficult to make a 
commitment that we will report our intent to have New Markets 
Venture Capital benefit low-income Census tracts. And to work 
with them--I think that is marvelous to include that language 
about them. But what is wrong with including my concern?
    Chairwoman Velazquez. Your concern--
    Ms. Moore. Is within the jurisdiction of this Committee.
    Chairwoman Velazquez. --does not strike the balance that we 
intend in the bill that we are considering today. So if the 
gentlelady is prepared to offer her amendment, then let's do 
that, and we call a vote.
    Ms. Moore. Well, Madam Chair, begging your indulgence, 
begging your indulgence, I just want to, you know--
    I know what time it is, actually. And I just want to repeat 
that this particular version of the bill, whether it is the New 
Markets Venture Capital program or the New Markets Tax program, 
you could drive a Mack truck through the definition of a 
geographic low-income area and that very, very wealthy 
individuals will not have to locate within low-income Census 
tracts. And all they have got to do is hire a handful of low-
income people outside of poor communities in order to qualify 
for these benefits.
    So I just want to clarify that that is indeed the loophole 
that we have left in here. And like I said, I have worked on it 
for 2 years, so it is not like I woke up this morning and ran 
in here with this idea.
    And so apparently you are not going to accept that, and you 
are the Chair of the Committee. I do respect you as the Chair 
of the Committee. And I know what that means if I were to put 
my amendment to a vote. So I wouldn't want to jeopardize my 
well-thought-out legislation by putting it to a vote here in 
the Committee. So I will withdraw it without that commitment 
from you, Madam Chair, and let you proceed on with your 
business. Thank you.
    Chairwoman Velazquez. My commitment to the gentlelady is to 
work with her and to address some of the issues that you 
raised. But as I said to you before, we can work together with 
the Ways and Means Committee. We updated the program. We made 
the changes that were asked from the industry and the 
community-based organizations that came before this Committee. 
We strike a balance. And it doesn't matter if we are going to 
provide tax credits so that people will not be able to use 
them. So what we achieve with this legislation is striking a 
balance between the tax credits and the amount of individuals 
that will benefit from using the tax credit.
    So this amendment is inconsistent with the original intent 
of the program. The program was originally intended to work 
hand in hand with the New Markets Tax Credits. The two 
definitions must be aligned, and that is the balance that we 
are achieving under this legislation.
    So I will continue to work with the gentlelady and see how 
can we work with the Ways and Means Committee so that her 
concerns are addressed, but that goes beyond the jurisdiction 
of this Committee right now.
    And I thank the gentlelady for her effort, her work and her 
commitment to bring venture capital to low-income communities.
    Ms. Moore. Thank you.
    Chairwoman Velazquez. Are there any other members that wish 
to be recognized at this point?
    Without objection, the amendment will withdraw.
    Are there any other members who wish to offer amendments at 
this point?
    The Committee now moves to consideration of the bill H.R. 
3567. The Clerk will report the title of the bill.
    No. Sorry.
    Seeing no amendments, the question is on passing and 
reporting the bill, H.R. 3567.
    All those in favor say aye.
    All those opposed, no.
    The ayes have it, and H.R. 3567 is adopted and ordered.
    I ask unanimous consent that the Committee be authorized to 
correct section numbers, punctuation and cross-references and 
to make other necessary technical and conforming corrections on 
the bills considered today. Without objection, so ordered.
    [Whereupon, at 10:38 a.m., the Committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                 <all>

</pre></body></html>
